APPLICATION AND
SOLICITATION
DISCLOSURE
REWARDS PREFERRED MASTERCARD LEVEL I
REWARDS PREFERRED MASTERCARD LEVEL II
REWARDS PREFERRED MASTERCARD LEVEL III
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Rewards Preferred Mastercard Level I

2.90% Introductory APR for a period of six billing cycles.
After that, your APR will be
based on the Prime Rate.

9.65%. This APR will vary with the market

Rewards Preferred Mastercard Level II

5.90% Introductory APR for a period of six billing cycles.
After that, your APR will be
based on the Prime Rate.

12.65%. This APR will vary with the market

Rewards Preferred Mastercard Level III

8.90% Introductory APR for a period of six billing cycles.
After that, your APR will be
based on the Prime Rate.
APR for Balance Transfers

15.25%. This APR will vary with the market

Rewards Preferred Mastercard Level I
5.90%
Rewards Preferred Mastercard Level II
8.90%
Rewards Preferred Mastercard Level III
11.90%

APR for Cash Advances

Rewards Preferred Mastercard Level I
2.90% Introductory APR for a period of six billing cycles.
After that, your APR will be 9.65%. This APR will vary with the market based
on the Prime Rate.
Rewards Preferred Mastercard Level II
5.90% Introductory APR for a period of six billing cycles.
After that, your APR will be 12.65%. This APR will vary with the market
based on the Prime Rate.
Rewards Preferred Mastercard Level III
8.90% Introductory APR for a period of six billing cycles.
After that, your APR will be 15.25%. This APR will vary with the market
based on the Prime Rate.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04200068-MXC10-C-2-111720 (MXC101-E)

How to Avoid Paying Interest on
Purchases
For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Transaction Fees
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

1.10% of each transaction in U.S. dollars
Up to $25.00
None
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Loss of Introductory APR:
We may end your Introductory APR for purchases and cash advances and apply the prevailing non-introductory APR if
you are 60 days late in making a payment.
Effective Date:
The information about the costs of the card described in this application is accurate as of: January 15, 2021
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Rewards Preferred Mastercard Level I, Rewards Preferred Mastercard Level II and
Rewards Preferred Mastercard Level III are secured credit cards. Credit extended under this credit card account
is secured by various personal property and money including, but not limited to: (a) any goods you purchase
with this account, (b) any shares you specifically pledge as collateral for this account on a separate Pledge of
Shares, (c) all shares you have in any individual or joint account with the Credit Union excluding shares in an
Individual Retirement Account or in any other account that would lose special tax treatment under state or
federal law, and (d) collateral securing other loans you have with the Credit Union excluding dwellings.
Notwithstanding the foregoing, you acknowledge and agree that during any periods when you are a covered
borrower under the Military Lending Act your credit card will be secured by any specific Pledge of Shares you
grant us but will not be secured by all shares you have in any individual or joint account with the Credit Union.
For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card account when you are
not a covered borrower; or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if you are one or more days late in making a
payment.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less.
Rush Fee:
$25.00 overnight.
Statement Copy Fee:
$2.00.

Mastercard and the Mastercard Brand Mark are registered trademarks of Mastercard International Incorporated.

04200068-MXC10-C-2-111720 (MXC101-E)

